                                          ORANGE COUNTY DISTRICT ATTORNEY

                                          PRESS RELEASE
                                          TONY RACKAUCKAS, District Attorney

 Susan Kang Schroeder, Chief of Staff                                                             Farrah Emami, Spokesperson
 Office: 714-347-8408                                                                                     Office: 714-347-8405
 Cell: 714-292-2718                                                                                        Cell: 714-323-4486

 FOR IMMEDIATE RELEASE
 Case # 11NF2867

 Date: December 8, 2011


          WOMAN CONVICTED AND SENTENCED FOR FRAUDULENTLY
       RECEIVING $118,000 IN PUBLIC ASSISTANCE BY FALSELY CLAIMING
              TO BE DIVORCED FROM POLICE OFFICER HUSBAND
FULLERTON – A woman was convicted and sentenced today for fraudulently receiving over $118,000 in public assistance
benefits by falsely claiming that she was divorced and not financially supported by her police officer husband. Lydia Delrio
Montelongo pleaded guilty yesterday, Dec. 7, 2011, to one felony count of medical insurance fraud with a sentencing
enhancement for white collar crime over $100,000. She was sentenced to nine months in jail, ordered to pay over $118,000 in
restitution, and up to six years in state prison stayed pending completion of five years of formal probation.

At the time of the crime, Montelongo was married to and lived with her husband, an employed Los Angeles Airport Police
Department officer. The defendant was not employed and was financially supported by her husband. Montelongo was also
covered by her husband’s medical insurance policy.

Beginning in December 2004, Montelongo applied for and illegally accepted social security benefits from the Social Security
Administration (SSA), for which she did not qualify. Beginning in June 2005, the defendant applied for and illegally accepted
Medi-Cal benefits, for which she did not qualify. Beginning in June 2008, Montelongo applied for and illegally accepted social
services benefits through In-Home Support Services (IHSS) from the Orange County Social Services Agency (OCSSA).

The defendant defrauded these public assistance agencies by falsely claiming that she was no longer married to her husband,
did not live with him, did not know his current whereabouts, and did not receive financial support from him. In all, Montelongo
fraudulently received over $118,000 in benefits, for which she did not qualify.

The fraud was discovered after an anonymous tip was received by law enforcement. The evidence in this case did not show
that the defendant’s husband was aware of the fraud.

The Orange County District Attorney’s Office Bureau of Investigation investigated this case with cooperation and assistance
from OCSSA-IHSS, SSA, and the California Department of Health Care Services.

Deputy District Attorney Sean O’Brien of the White Collar Crime Team prosecuted the case.

                                                            ###




                          www.orangecountyda.com • 401 Civic Center Drive West, Santa Ana, CA 92701
